U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report




      Food Stamp Program
      Administrative Costs
            Arizona




              Report No.
              27099-19-SF
              July 2002
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                      Western Region - Audit
                                  75 Hawthorne Street, Suite 200
                               San Francisco, California 94105-3920
                              TEL: 415-744-2851 FAX: 415-744-2871



DATE:       July 24, 2002

REPLY TO
ATTN OF: 27099-19-SF

SUBJECT: Food Stamp Program Administrative Costs –
         Arizona

TO:         Allen Ng
            Regional Administrator
            Western Region
            Food and Nutrition Service

ATTN:       Kathleen Burks
            Director of Financial Management


This report presents the results of our audit of the Food Stamp Program (FSP)
administrative costs claimed by Arizona for Federal fiscal year (FY) 2000. Our
objectives were to determine if Arizona followed its cost allocation plan in
claiming FSP costs, and to verify the accuracy and allowability of those
administrative costs. Our review did not disclose any conditions that would cause
us to question the FSP administrative costs claimed by Arizona in FY 2000. We
also concluded that Arizona followed its cost allocation plan.

BACKGROUND

In 1977, Congress passed Public Law 95-113, the Food Stamp Act, which made
the FSP a permanent, Federal food assistance program that provides support to
needy households. Food and Nutrition Service (FNS) funds the full cost of food
stamp benefits and generally reimburses the States for 50 percent of their direct
and indirect administrative costs for implementing the program.

In Arizona, the Department of Economic Security (DES) administers the FSP. DES
prepares and submits a quarterly financial status report (SF 269) to FNS to claim
reimbursement for FSP administrative costs. In FY 2000, the total Federal outlay
for FSP administrative costs in Arizona was approximately $23.5 million.

DES bases its direct and indirect administrative costs on its cost allocation plan
approved by the cognizant Federal agency, the U.S. Department of Health and
Human Services (HHS). Direct costs consist of costs directly benefiting the
programs, such as direct labor, rent, and utilities. Indirect costs and some direct
Allen Ng                                                                           2


costs (e.g., eligibility determination) are allocated according to the Arizona Random
Moment Sample (ARMS).

Under ARMS, management selects a statistical sample of employees to identify
the programs they worked on at the sample time.             After management
summarizes the information from the sample forms, a percentage of participation
is calculated for each financial program. The information is used to distribute
costs to each program.

OBJECTIVE

The objectives of this audit were to determine (1) if Arizona followed its cost
allocation plan in claiming direct and indirect costs, and (2) the accuracy and
allowability of the administrative costs claimed on the SF 269’s.

SCOPE

We performed this audit as part of our ongoing review of States in the FNS
western region. We reviewed the SF 269 for FY 2000 and judgmentally selected 8
of 15 cost categories for more detailed examination—certification, management
evaluation, fraud control, nutrition and education, ADP operations, unspecified
portion of others, and both employment and training categories. These categories
represented $20.9 million out of $23.5 million (89 percent) in administrative costs.

Fieldwork was performed in May 2002 at the FNS Western Regional Office in San
Francisco, CA; and in June 2002 at DES in Phoenix, AZ.

This audit was performed in accordance with generally accepted government
auditing standards.

METHODOLOGY

To accomplish our objectives, we performed the following procedures:

 •   We interviewed FNS Western Regional Office officials to determine what
     controls are used to monitor FSP administrative costs at the State agencies
     and to identify any issues concerning the budget approval process.

 •   At the FNS Western Regional Office, we reviewed the latest FNS financial
     management review of DES in April 1998, and Arizona’s cost allocation plan
     approved by HHS to identify potential issues.

 •   We interviewed an official at HHS’ Division of Cost Allocation to determine if
     there were any problems relating to Arizona’s’ cost allocation plan.
Allen Ng                                                                              3


  •   We reviewed the U.S. Office of Management and Budget A-133 single audit
      report for Arizona for FY 2000 to identify issues concerning the allocation of
      State administrative costs.

  •   We reviewed DES’ accounting records and analyzed the reimbursement
      claims made on the final Financial Status Report for FY 2000.

  •   We interviewed DES officials responsible for recording and reporting
      administrative costs and completing ARMS to verify the process and controls
      for ARMS.

  •   We reviewed ARMS records and verified the allocation ratios used to
      distribute administrative costs to various programs.

AUDIT RESULTS

Our review did not disclose any conditions that would cause us to question the FSP
administrative costs claimed by Arizona in FY 2000. After reviewing Arizona’s
allocation procedures and its financial records, we also concluded that Arizona
followed its cost allocation plan.

Therefore, no response to this report is necessary, and we are closing our file on
this audit number. Since we have no findings or recommendations to report, we
will notify the Office of the Chief Financial Officer that no further action is required
by FNS.

We appreciate the assistance and cooperation of your staff during our review.



/s/

SAM W. CURRIE
Regional Inspector General
 for Audit
